     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103




June 23, 2010


Report Number: A-09-09-00110

Mr. Toby Douglas
Chief Deputy Director of Health Care Programs
California Department of Health Care Services
1501 Capitol Avenue, MS 0002
Sacramento, CA 99859-7413

Dear Mr. Douglas:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Payments for Services Claimed for
Deceased Beneficiaries in California. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please call Tom Lin, Senior Auditor, or
Alice Norwood, Audit Manager, at (415) 437-8360. Please refer to report number
A-09-09-00110 in all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Toby Douglas


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




REVIEW OF MEDICAID PAYMENTS
  FOR SERVICES CLAIMED FOR
 DECEASED BENEFICIARIES IN
         CALIFORNIA




                      Daniel R. Levinson
                       Inspector General

                          June 2010
                        A-09-09-00110
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to certain low-income individuals and individuals with disabilities. In California, the
Department of Health Care Services (the State agency) administers the program.

Federal regulations state that an overpayment is the amount that a Medicaid agency paid to a
provider in excess of the amount allowable for furnished services. Because services cannot be
provided after a beneficiary’s death, no medical services are allowable after a beneficiary’s
death. Accordingly, payments for services claimed to have been provided after a Medicaid
beneficiary’s death are overpayments.

The Social Security Administration maintains a data file of deceased individuals compiled from
State governments, funeral homes, and friends and family of the deceased. This information is
available to State and Federal agencies to assist in preventing payments for services claimed to
have been provided after beneficiaries’ deaths.

The California Department of Public Health, Office of Vital Records (OVR), maintains a central
registry with a comprehensive and continuously updated index for all births and deaths in
California. The State agency obtains death records from OVR to update its Medicaid eligibility
data files. In addition, the State agency periodically reviews claims and beneficiary eligibility to
identify and recover Medicaid payments for services claimed to have been provided after
beneficiaries’ deaths.

We identified California Medicaid beneficiaries for whom the State agency had paid fee-for-
service claims for services provided during the period January 1, 2007, to June 30, 2008. For
Medicaid-eligible beneficiaries that we verified were deceased, we determined the amounts paid
for services claimed to have been provided after their deaths through April 2009.

OBJECTIVE

Our objective was to determine whether the State agency made Medicaid payments to providers
for claims with dates of service after beneficiaries’ deaths.

SUMMARY OF FINDING

The State agency made Medicaid payments to providers for claims with dates of service after
beneficiaries’ deaths. Specifically, the State agency paid a total of $273,457 ($136,729 Federal
share) for 1,205 fee-for-service claims for 35 deceased Medicaid beneficiaries. We verified the
dates of death for these beneficiaries by reviewing death certificates.

The overpayments occurred because the State agency’s controls did not always identify and
recover payments made for services claimed to have been provided after beneficiaries’ deaths.
Specifically, the State agency’s Medicaid eligibility data files did not always reflect that

                                                  i
beneficiaries had died. The State agency commented that potential delays exist in obtaining and
updating these data files with beneficiaries’ dates of death, making it possible for claims to be
paid for deceased beneficiaries.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal Government $136,729 (Federal share) in Medicaid payments for
       claims with dates of service after beneficiaries’ deaths and

   •   strengthen its controls for identifying deceased beneficiaries to prevent overpayments in
       the future.

STATE AGENCY COMMENTS AND OFFICE
OF INSPECTOR GENERAL RESPONSE

In its comments on our draft report, the State agency said that it continues to review our findings
and will refund to the Federal Government amounts paid for claims with dates of service after
beneficiaries’ deaths. The State agency noted that for one beneficiary, the medical examiner
submitted an amended certificate of death to the county recorder’s office. The State agency said
that the payments made for this beneficiary were for services provided before the date of death
and were therefore appropriate. In addition, the State agency described actions taken to
strengthen its controls for identifying deceased beneficiaries to prevent overpayments. The State
agency’s comments are included in their entirety as the Appendix.

After reviewing the State agency’s comments and additional documentation, we revised our
finding to remove the payments for the beneficiary for whom services were provided before the
date of death and adjusted the amount of the recommended refund.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              The Medicaid Program ..................................................................................1
              Medicaid Payments for Deceased Beneficiaries ............................................1
              Social Security Administration and State Agency Death Information ..........1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................2

FINDING AND RECOMMENDATIONS .........................................................................3

          FEDERAL AND STATE REGULATIONS .............................................................3

          PAYMENTS TO PROVIDERS FOR DECEASED BENEFICIARIES ...................3

          RECOMMENDATIONS ...........................................................................................4

          STATE AGENCY COMMENTS AND OFFICE
           OF INSPECTOR GENERAL RESPONSE ............................................................4

APPENDIX

          DEPARTMENT OF HEALTH CARE SERVICES COMMENTS




                                                                    iii
                                            INTRODUCTION

BACKGROUND

The Medicaid Program

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to certain low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In California, the Department of Health Care
Services (the State agency) administers the program.

Medicaid Payments for Deceased Beneficiaries

Federal regulations (42 CFR § 433.304) state that an overpayment is the amount that a Medicaid
agency paid to a provider in excess of the amount allowable for furnished services. Because
services cannot be provided after a beneficiary’s death, no medical services are allowable after a
beneficiary’s death. Accordingly, payments for medical services claimed to have been provided
after a Medicaid beneficiary’s death are overpayments.

Social Security Administration and State Agency Death Information

The Social Security Administration (SSA) maintains a data file of deceased individuals compiled
from State governments, funeral homes, and friends and family of the deceased. All reported
deaths of people who have Social Security numbers are routinely added to SSA’s Death Master
File. This information is available to State and Federal agencies to assist in preventing payments
for services after death.

The California Department of Public Health, Office of Vital Records (OVR), maintains a central
registry with a comprehensive and continuously updated index for all births and deaths in
California. The central registry is updated with an individual’s death information after the
information has been registered and recorded by the county.

The State agency obtains death records from OVR to update its Medicaid eligibility data files.
As part of claims processing, the State agency uses these data files to determine whether a
beneficiary is eligible for Medicaid and whether a beneficiary is deceased. If these data files
indicate that a beneficiary is deceased, claims with dates of service after the date of death are
denied for payment. In addition, the State agency periodically reviews claims and beneficiary
eligibility to identify and recover Medicaid payments for services claimed to have been provided
after beneficiaries’ deaths. 1

1
 The State agency contracted with Health Management Systems to perform special projects, including a review of
payments made to providers for deceased beneficiaries. Health Management Systems uses the SSA Death Master
File to perform these reviews.


                                                       1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency made Medicaid payments to providers
for claims with dates of service after beneficiaries’ deaths.

Scope

From January 2007 through June 2008, the State agency paid approximately $46 billion in
Medicaid fee-for-service claims. To identify potentially deceased beneficiaries, we matched
Medicaid beneficiaries’ names, Social Security numbers, and birth dates (obtained from the
Medicaid claims data) with corresponding data for deceased individuals from the SSA Death
Master File. We identified 249 beneficiaries with fee-for-service payments totaling more than
$5,000 per beneficiary for services after the beneficiaries’ dates of death.

From the 249 beneficiaries we identified as deceased, we excluded (1) those deceased
beneficiaries for whom the State agency was actively pursuing collection of overpayments prior
to our review and (2) those beneficiaries for whom the dates of death could not be verified. For
Medicaid-eligible beneficiaries that we verified were deceased, we determined the amounts paid
for services claimed to have been provided after their deaths through April 2009.

We did not review the overall internal control structure of the State Medicaid program. We
limited our internal control review to obtaining an understanding of the State agency’s
procedures to identify payments for services claimed to have been provided to deceased
beneficiaries and to recover the overpayments.

We performed our fieldwork at the State agency’s office in Sacramento, California.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Medicaid laws and regulations;

   •    reviewed the State agency’s policies and procedures related to death notification and
        preventing or recovering payments for services claimed to have been provided after
        beneficiaries’ dates of death;

   •    identified California Medicaid beneficiaries for whom the State agency had paid fee-for-
        service claims for services provided during the period January 1, 2007, to June 30, 2008;

   •    for the identified beneficiaries, matched the Medicaid eligibility data files to the SSA
        Death Master File by names, Social Security numbers, and birth dates to identify
        potentially deceased beneficiaries;


                                                 2
   •   for the identified beneficiaries, compared SSA death information with death certificates
       obtained from the State agency to determine whether the SSA date of death was accurate
       for each beneficiary;

   •   determined the total amount of overpayments associated with services for the identified
       deceased beneficiaries; and

   •   coordinated our review with the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATIONS

The State agency made Medicaid payments to providers for claims with dates of service after
beneficiaries’ deaths. Specifically, the State agency paid a total of $273,457 ($136,729 Federal
share) for 1,205 fee-for-service claims for 35 deceased Medicaid beneficiaries.

FEDERAL AND STATE REGULATIONS

Federal regulations (42 CFR § 433.304) state that an overpayment is the amount that a Medicaid
agency paid to a provider in excess of the amount allowable for furnished services.

State regulations (California Code of Regulations, Title 22, section 50067) state that an
overpayment is the receipt of Medicaid benefits when there is no entitlement to all or a portion of
the benefits received.

PAYMENTS TO PROVIDERS FOR DECEASED BENEFICIARIES

The State agency paid a total of $273,457 (Federal share $136,729) for 1,205 fee-for-service
claims for 35 deceased Medicaid beneficiaries. We verified the dates of death for these
beneficiaries by reviewing death certificates.

The overpayments occurred because the State agency’s controls did not always identify and
recover payments made for services claimed to have been provided after beneficiaries’ deaths.
Specifically, the State agency’s Medicaid eligibility data files did not always reflect that
beneficiaries had died. The State agency commented that potential delays exist in obtaining and
updating these data files with beneficiaries’ dates of death, making it possible for claims to be
paid for deceased beneficiaries.




                                                3
RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal Government $136,729 (Federal share) in Medicaid payments for
       claims with dates of service after beneficiaries’ deaths and

   •   strengthen its controls for identifying deceased beneficiaries to prevent overpayments in
       the future.

STATE AGENCY COMMENTS AND OFFICE
OF INSPECTOR GENERAL RESPONSE

In its comments on our draft report, the State agency said that it continues to review our findings
and will refund to the Federal Government amounts paid for claims with dates of service after
beneficiaries’ deaths. The State agency noted that for one beneficiary, the medical examiner
submitted an amended certificate of death to the county recorder’s office. The State agency said
that the payments made for this beneficiary were for services provided before the date of death
and were therefore appropriate. In addition, the State agency described actions taken to
strengthen its controls for identifying deceased beneficiaries to prevent overpayments. The State
agency’s comments are included in their entirety as the Appendix.

After reviewing the State agency’s comments and additional documentation, we revised our
finding to remove the payments for the beneficiary for whom services were provided before the
date of death and adjusted the amount of the recommended refund.




                                                 4
APPENDIX 

                                                                                                               Page 1 of6


APPENDIX: DEPARTMENT OF HEALTH CARE SERVICES COMMENTS 



                    State of California-Health and Human Services Agency
..,HCS
                    Department of Health Care Services
~~
                                                                                                        "'-­
                                                                                                ARNOlD SCHWARZENEGGER




   JUN 0 1 11DIO'

   Ms. Lori A. Ahlstrand
   Regional Inspector General for Audit Services
   Office of Inspector General
   90 7th Street. Suite 3-650
   San Francisco, CA 94103

   Dear Ms. Ahlstrand :

   The California Department of Health Care Services (OHCS) has prepared its response
   to the U.S. Department of Health and Human Services, Office of Inspector General
   (OIG), draft report entitled "Review of Medicaid Payments for Services Claimed for
   Deceased Beneficiaries in California" (A-09-09-00110). DHCS appreciates the work
   performed by the OIG and the opportunity to respond to the draft report.

   Please contact Ms. Traei Walter, Audit Coordinator, at (916) 650-0298 if you have any
   questions.



  ?fIj

   TObA oU9,as      x >-' ·
                                                           "



   Chief Deputy Director
   Health Care Programs

   cc:   See next page




            1501 Capitol Avenue. Suite 71.6001, MS 0002 • P,O. 99741 3 · Sacramento. CA 95899-74 13 

                                      (91 6) 440-74 00 ' (916) 440-7404 FAX 

                                        Internet address: www_dhcsCil,gQj 

                                                             Page 2 of6




Ms. Lori A. Ahlstrand
Page 2
JUN ·O1 2010


cc: 	   Ms. Karen Johnson
        Chief Deputy Director
        Policy & Program Support
        1501 Capitol Avenue, MS 0005
        P.O. Box 997413 

        Sacramento, ,GA 95899-7413 


        Ms. Rene Mallow, Chief 

        Medi-Cal Eligibility Division 

        1501 Capitol Avenue, MS 4607 

        P.O. Box 997413
        Sacramento, CA 95899-7413

        Ms. Maria Enriquez, Chief
        Fiscal Intermediary & Contracts Oversight Division
        1501 Capitol Avenue, MS 4700
        P.O. Box 997413 

        Sacramento, CA 95899-7413 


        Mr. Michael Nguyen
        Deputy Director
        InfoOllation Technology Services Division
        1501 Capitol Avenue, MS 6000
        P.O. Box 997413 

        Sacramento, CA 95899-7413 


        Mr. Robert O'Neill 

        Deputy Director 

        Audits and Investigations Division 

        1500 Capitol Avenue, MS 2000 

         P.O. Box 997413 

        Sacramento, CA 95899-7413 


        Ms. Jan Inglish, Chief 

        Medical Review Branch 

        Audits and Investigations Division 

        1500 Capitol Avenue, MS 2300 

        P.O. Box 997413 

        Sacramento , CA 95899-7413 

                                                                                              Page 3 of6




                         Department of Health Care Services 

        Response to the Office of Inspector General's Draft Report Entitled 


                     Review of Medicaid Payments for Services 

                  Claimed for Deceased Beneficiaries in California 



SUMMARY OF FINDING
The State agency made Medicaid payments to providers for claims with dates of service
after beneficiaries' deaths. Specifically, the Stale agency paid a total of $388,3 13
($194,157 Federal share) for 1,255 fee-for-service claims for 36 deceased Medicaid
beneficiaries. The Office of Inspector General (OIG) verified the dates of death for
these beneficiaries by reviewing death certificates.

The overpayments occurred because the State agency's controls did not always identify
and recover payments made for services claimed to have been provided after
beneficiaries'deaths. Specifically, the State agency's Medicaid eligibility data files did
not always reflect that beneficiaries had died. Due to its reliance on external sources,
the State agency commented that potential delays exist in obtaining and updating these
data files with beneficiaries' dates of death, making it possible for claims to be paid for
deceased beneficiaries.


Recommendation: 	       O IG recommends that the Stale agency refund to the Federal
                        Government $194,157 (Federal share) in Medicaid payments for
                        claims with dates of service after beneficiaries' deaths.

Response: 	             Health Care Services (DHCS) continues to review the OIG's
                        findings and will refund to the Federal Government amounts
                        paid for claims with dates of services after beneficiaries'
                        deaths.

                        Summary of initial findings:

                        •	     All of the HP Enterprise Services (HP), formerly known
                               as Electronic Data Systems (EDS), paid claims were
                               received prior to the date of death being posted to the
                               Medi·Cal Eligibility Data System (MEDS).

                        •	     Beneficiary #196 ($57,428 Federal share) -The San
                               Diego Medical Examiner's Office confirmed the date of
                               death as April 27, 2008; not December 1, 2007, as
                               previously reported. The Medical Examiner is submitting
                               an amended certificate of death to the County Recorder's
                               Office. The dates of service on the claims for this
                               beneficiary were from January 19 through January 24,
                                                                                          Page4of6




                           2008, making the payments appropriate. Documentation
                           is available for the OIG's review.

                    •	     Beneficiaries #16, 38, 76, 92, 112, 117, 192, and 233­
                           DHCS' Audits & Investigations Division (A&I), Medical
                           Review Branch (MRS), performs targeted reviews of
                           providers that have billed for deceased beneficiaries.
                           Eight of the beneficiaries identified by the OIG were also
                           identified during MRS's targeted provider reviews. For
                           the eight beneficiaries, MRS identified overpayments
                           totaling $7 ,293.26 ($3,646 .63 Federal share). Demand
                           letters have been mailed to the providers and $1 ,752
                           ($876 Federal share) has been recovered and returned
                           to the Federal Government. Recovery of the remaining
                           $5,541 ($2,771 Federal share) is in process.
                           Documentation is available for the DIG's review.


Recommendation: 	   DIG recommends that the State agency strengthen its controls
                    for identifying deceased beneficiaries to prevent overpayments
                    in the future.

Response: 	         Medi-Cal benefiCiaries, family members, and/or providers must
                    report timely any changes that impact eligibility status. Once
                    the source of death information is received by DHCS's
                    Information Technology Services Division (ITSD), it is
                    processed via existing daily batch processes and updates
                    MEDS. At this point, the beneficiary's eligibility is terminated or
                    corrected.

                    Currently, the beneficiary's death information is updated in
                    MEDS based on the frequency of data received from nine
                    authorized sources. The hierarchical list below demonstrates
                    the priority of data acceptance and the current frequency:

                    •	     Vital Records System (California Department of Public
                           Health) - monthly
                    •	     Medi-Cal Eligibility Division (MCED) - daily
                    •	     SSA SSI/SSP Update - daily
                    •	     Medicare Buy-In System/BENDEX - Buy-in - monthly
                    •	     County Welfare Department reported death date - daily
                    •	     Other State/County Health Program - daily
                    •	     County Pickle Status Update - annual
                    •	     County Welfare Department reported Death Term
                           Reason - daily



                                         2
                                                                     Page 5 of6




•	    Returned Beneficiary Identification Card (BIC) marked as
      deceased - weekly

DHCS has explored the viability of increased freq uency from the
Vital Records System data. CDPH's internal p rocesses for
receiving, verifying, and conducting quality control of birth and
death records require a one-month turnaround before data can
be shared with sister departments , such as DHCS.

At the direction of MRB, HP's Program Integrity Organization's
ad hoc team runs a bi-annual report to identify claims paid for
deceased beneficiaries. Criteria and background are as follows:

Frequency:
Bi-Annual (every six months)

Description:
•	    Run Paid Claim Detail report for deceased beneficiaries
      fo r all provider types for possible inappropriate payments.
      T his will find claims submitted and paid prior to the
      beneficiary's date of death being posted on the e ligibility
      file.
•	    Identify suspicious p roviders paid for claims after the
      beneficiary's date of death.
•	    Forward possible suspicious providers to DHCS-A&I­
      MRS.

Research Criteria /includes but is not limited to);
•	   Review number of days between beneficiary date of
     death and date of service for each provider; by-pass
     claims with less than three days between unless the
     billing provider appears to repeatedly bill this way.
•	   Review all locations for each provider and identify
     number of services provided and/or dollar amounts, as
     well as identifying the number of unduplicated
     beneficiaries and possible duplicate billing across
     provider locations.
•	   Review providers for possible sharing amongst other
     identified providers and for other suspicious billing
     patterns.

T he ad hoc team reviews the bi-annual report for providers who
were paid for dates of service after beneficiaries' dates of death
and refers them to MRS for potential Field Audit Review (FAR)
cases. FARs may result in the recovery of identified




                    3
                                                                  Page 6 of6




overpayments; administrative sanctions, including withholds and
temporary suspensions; or removal from the program.

In addition, DHCS will implement the following procedures:

•	    MRB will impose temporary suspensions on all providers
      exceeding S50,000 in potential overpayments for
      payments for deceased beneficiaries.
•	    DHCS's Fiscal Intermediary and Contracts Oversight
      Division will use the ad hoc bi-annual reports to recover
      overpayments for lesser amounts through the Claims
      Inquiry Form (elF) process.




                   4
